March 5, 2003

ALFRED INIGUEZ
VICE PRESIDENT, PACIFIC AREA OPERATIONS

DOUGLAS A. TULINO
ACTING VICE PRESIDENT, LABOR RELATIONS

HENRY A. PANKEY
VICE PRESIDENT, DELIVERY AND RETAIL

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT:       Management Advisory - Reno, Nevada Mail Transportation
              (Report Number CQ-MA-03-001)

This management advisory reports the results our review in response to a hotline
complaint relating to transporting bulk mail in the Reno, Nevada, area (Project
Number 02BR004CQ000). Our review indicated that there was merit to the complaint.
We recognized opportunities to reduce transportation costs and improve transportation
management in the Reno, Nevada, area, assuming no legal constraints. However, the
Postal Service should conduct more in-depth and proper cost analysis of all
alternatives, including outsourcing, for improved decision making.

Though management did not specifically concur with our recommendation,
management’s actions taken and planned should correct the issues identified in the
report. Management’s comments and our evaluation of these comments are included in
this report.

                                      Background

Historically, letter carriers have been used to transport inter-station bulk mail within
Reno city limits. In 1992, the Postal Service reassigned this work to a newly created
postal motor vehicle craft that assumed all bulk mail transportation work in the Reno
area. In 1997, after letter carriers grieved the transfer of work, an arbitrator ruled in
favor of using letter carriers to transport interstation mail inside Reno, Nevada, city limits
and using postal vehicle service drivers to perform the work outside city limits—the
current arrangement used to transport bulk mail.




                                     Restricted Information
Reno, Nevada Mail Transportation                                                 CQ-MA-03-001




Since that time, there have been a number of grievances challenging the current
allocation of transportation service within Reno, Nevada, city limits. The question of
whether this arbitration can be challenged is still pending.

                             Objective, Scope, and Methodology
The purpose of our review was to determine the merits of a hotline complaint which
asserted that:

•     Over $600,000 is wasted annually when two types of craft employees are used to
      transport bulk mail in the same general vicinity.

•     The Postal Service’s cost comparison on whether to keep transportation services
      in-house or to outsource was biased in favor of outsourcing.

Our auditors made observations of mail transportation routes, reviewed applicable
policies and procedures, researched arbitration histories, and assessed cost analyses
provided. The postal vehicle service, represented by the American Postal Workers
Union, provided detailed route analyses supporting their assertions. We compared their
proposal with actual year-end data, analyzed rates used, and assessed the
reasonableness of assumptions claimed. We did not perform detailed analysis to
identify optimal route reductions but verified with local managers whether proposed
route reductions were achievable without affecting customer service.

We are providing this advisory so management can make necessary inquiries, and
take action they consider appropriate under the circumstances. We conducted our
review from September 2002 to March 2003, in accordance with the President’s Council
on Integrity and Efficiency, Quality Standards for Inspections. We discussed
our conclusions and observations with appropriate management officials and modified
our report accordingly.

                                        Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this review.

                                                    Results
Apparent Inefficiencies

Although Postal Service policies require continuous adjustments to its transportation
network to maintain efficiencies,1 we determined that the Reno, Nevada, transportation
network for interstation mails has long-standing inefficiencies, such as:

1
    Network Planning Policies Handbook M-22.



                                                          2
                                               Restricted Information
Reno, Nevada Mail Transportation                                                                CQ-MA-03-001




      •    Letter carriers and postal vehicle service drivers performing overlapping work.
      •    Drivers underutilizing truck capacities for normal route delivery.
      •    Transportation routes not consolidated.

Over a 2-day period, we observed 13 trucks departing from the Reno General Mail
Facility dock with mails for stations and noted that:

      •    Only 3 of 13 trucks were filled over 75 percent capacity.

      •    As exemplified in Appendix A, three other trucks were filled less than 25 percent
           of their capacity.

      •    Seven of thirteen trucks appeared to be at half capacity.

      •    Transportation routes of the two crafts routinely crossed paths when traveling to
           nearby destinations. Local Postal Service managers, letter carriers, and postal
           vehicle service drivers agreed that several routes could be enhanced through
           consolidation.

American Postal Workers Union Proposal

According to the American Postal Workers Union proposal, if routes were consolidated
the Postal Service would significantly reduce the cost of mileage, labor hours, vehicles,
torts and management overhead. Under the assumption that this proposal would not
affect service, the American Postal Workers Union proposal results in a cost of
$2.2 million annually, which is at least $600,000 less than fiscal year 2002 actual costs.
The cost reductions above are dependent on management successfully renegotiating
labor agreements with the two crafts impacted.

Opportunities to Improve Outsourcing Proposal

In August 2002, area managers submitted a cost savings proposal for approximately
$266,000 to outsource Reno interstation bulk mail transportation. While Postal Service
guidelines2 called for complete and uniform proposals that encompass and considers all
cost factors under labor agreements,3 we believe that the cost savings proposal was
incomplete for comparison purposes. Specifically, the cost analysis prepared by the
Postal Service only considered workhours and mileage. Other relevant costs described
in Postal Service guidelines such as those related to vehicle ownership, the excessing
of employees, or the reassignment of employees, were not considered in the cost
savings proposal.


2
    1999 New Mode Conversion Guidelines – Postal vehicle services and highway contract route.
3
    Article 32 American Postal Workers Union agreement.



                                                          3
                                               Restricted Information
Reno, Nevada Mail Transportation                                              CQ-MA-03-001



According to the labor agreement covering motor vehicle drivers, cost comparisons
should also consider average costs for employees, including fringe benefits, and all
vehicle costs. Comprehensive costing factors, including the minimum required by labor
agreements when considering whether to outsource functions, would allow the Postal
Service to objectively capture and consider all relevant costs and result in improved
decision making. Having incomplete cost analyses would bias decision making.

Conclusion

The Postal Service needs to analyze all alternatives in a complete and equitable
manner. Based on our observations, there are probable savings that cannot be
quantified until this analysis is performed.

Recommendation

We recommend the vice presidents, Pacific Area Operations, Delivery and Retail, and
Network Operations Management, and the acting vice president, Labor Relations:

    1. Determine available options and provide the Office of Inspector General (OIG)
       with your plan to reduce unnecessary costs for bulk mail transportation in the
       Reno, Nevada, area.

Management’s Comments

To respond to the OIG concerns relating to long-standing transportation inefficiencies in
Reno, management met with the Reno plant manager and his staff to develop several
recommendations to be completed by March 31, 2003. These actions include:

    •   Conducting further comprehensive cost analysis considering all relevant cost
        factors to ensure an objective unbiased decision when submitting a revised
        comparative conversion proposal.

    •   Ensuring that cost comparisons follow labor agreement guidelines.

    •   Addressing employee excessing and reassignment issues.

Management’s comments, in their entirety, are included in Appendix B of this report.

Evaluation of Management’s Comments

Though management did not specifically concur with our recommendation,
management’s actions taken or planned should correct the issues identified in the
report.




                                               4
                                    Restricted Information
Reno, Nevada Mail Transportation                                           CQ-MA-03-001



The OIG considers recommendation 1 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. The recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact me at (703) 248-2300.



John M. Seeba
Assistant Inspector General for Audit

Attachment

cc: Patrick R. Donahoe
    Susan M. Duchek




                                              5
                                   Restricted Information
Reno, Nevada Mail Transportation                                                         CQ-MA-03-001




                                  APPENDIX A
                      OBSERVATIONS OF TRUCKS DEPARTING
                        THE RENO GENERAL MAIL FACILITY




                  Postal Service trucks less than 25 percent full, departing the dock.




                                                    6
                                         Restricted Information
Reno, Nevada Mail Transportation                            CQ-MA-03-001




                     APPENDIX B. MANAGEMENT’S COMMENTS




                                              7
                                   Restricted Information
Reno, Nevada Mail Transportation                            CQ-MA-03-001




                                              8
                                   Restricted Information
